GR-40-98-018
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Office of Community Oriented Policing Services
Grant to the West, Mississippi, Police Department
 
GR-40-98-018
 
August 1998
 
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of the
Universal Hiring Program (UHP) grant awarded by the U.S. Department of Justice (DOJ),
Office of Community Oriented Policing Services (COPS), to the West, Mississippi, Police
Department (West PD). The West PD received a $49,918 UHP grant, No. 96-UM-WX-1454, to hire
two part-time officers. The purpose of the additional officers is to enhance community
policing efforts.
In brief, the West PD claimed reimbursement for 120 hours per month, rather than the
actual hours worked, which ranged from 49 - 117 hours per month. Accordingly, we question
the excess drawdown, $6,647, as unallowable. Also, the West PD did not request a
retirement plan as a fringe benefit in its grant application. However, beginning with the
fifth reimbursement request, the West PD claimed reimbursement for payments into a
retirement plan. Accordingly, we question $783 paid for the retirement plan as
unallowable.
These items are discussed in the Findings and Recommendations section of the report.
Our scope and methodology appear in Appendix II.
#####